       *
                                                                                                   I


                                                                                                   11
                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

Case Number: I03120068                                                                       Page 1 of 1

                                                                                                        I




           The National Science Foundation (NSF) Office of Inspector General (OIG) received an allegation
           of a possible Conflict of Interest (COI) issue regarding input for a solicitation from an
           Intergovernmental Personnel Act (IPA) employee working as a Senior ~dvisor.'

           The Deputy Assistant Director advised that the IPA did not provided any direct input for the
                                                                                                    11
           solicitation.

           The Office of General Counsel advised that the employee did not violate any ethics rules.
                                                                                                            I/
           Accordingly, this case is closed.




                                                                                                             I




                                                                                                                 I!




                                                                                                                 /I




                                                                                                                      I




                                                                                                                          I




           1
               Footnote redacted
               Footnote redacted



NSF OIG Form 2 (1 1/02)
